                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             III NORTH CANAL. SUITE 940 

                                                               CHICAGO. ILLINOIS 60606 


                                                                    FAX : (312) 353-0244
     Audit                                                                                                                                     Investigation
(312) 886-6503                                                                                                                                (312) 353-7891

                                                                  SEP 30 2003 

                                                                                      Control Number ED-OIG/A05-C0029

                 Cheri Pierson Yecke, Ph.D., Commissioner
                 Minnesota Department of Education
                 1500 Highway 36 West
                 Roseville, MN 55113-4266

                 Dear Dr. Yecke:

                 This Final Audit Report presents the results of our audit of Minnesota's local
                 educational agencies' (LEA) allocations of Elementary and Secondary Education Act, as
                 amended, Title I, Part A, funds to schools for the period July 1, 2001, through June 30,
                 2002 (2001-2002 school year). Our objective was to determine whether LEAs in the
                 State of Minnesota complied with Title I, Part A (Title I), of the Elementary and
                 Secondary Education Act of 1965 (ESEA), as amended by the Improving America's
                 Schools Act of 1994, 1 and regulations governing the allocation of funds to schools.

                 In response to our draft audit report, the Minnesota Department of Education agreed to
                 implement both of our recommendations (See Attachment).

                                                               AUDIT RESULTS

                 For the 2001-2002 school year, the State of Minnesota received $95,313,310 (Basic and
                 Concentration grants) in Title I funds and allocated $90,334,593 to 343 LEAs. Our audit
                 of 10 LEAs' allocations of$29,196,558 to schools disclosed that Minnesota LEAs
                 generally complied with the law and applicable regulations governing the allocation of
                 Title I funds to schools. The LEAs generally (1) allocated Title I funds to the schools
                 with the highest percentages of poor children (that is, in rank order), (2) allocated Title I
                 funds only to eligible schools, (3) ensured that proper poverty measures were used and
                 that lower poverty schools were not receiving higher per-pupil allocations than higher
                 poverty schools, and (4) ensured the data used to identify and count eligible poverty
                 children was inclusive (private school, charter school, and home school children). Our
                 audit also disclosed that the Minnesota Department of Children, Families, and Learning's
                 (CFL)2 controls over allocating Title I funds to LEAs and monitoring the LEAs'
                 procedures for allocating Title I funds to their schools were sufficient to provide


                 1The ESEA was reauthorized by the No Child Left Behind Act of 200 I on January 8, 2002.
                 2CFL, the state educational agency in Minnesota at the time of our audit, is now the Minnesota Department of
                 Education.


                        Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report 	                                                                    ED-OIG/A05-C0029

reasonable assurance that LEAs complied with the law and regulations governing the
allocation of Title I funds to schools.

However, 2 of the 10 LEAs we audited did not allocate Title I funds entirely in
accordance with the law and applicable regulations. The Minneapolis LEA used student
counts to allocate Title I funds to public schools that were not the same as the counts used
to rank its schools. Instead of using the October 1, 2000, counts that it used to rank its
schools, the Minneapolis LEA used projected enrollment counts for the fall of 2001. This
resulted in the incorrect allocation of $683,084. The use of different counts increased the
allocations made to 26 schools by $257,914 and decreased the allocations made to 36
schools by $425,170. The Park Rapids LEA allocated higher per-pupil amounts to
schools with lower concentrations of poverty than it allocated to the school with the
highest concentration of poverty. This resulted in the school with the highest
concentration of poverty receiving $7,148 less than it should have received.

Finding No. 1 	One LEA Did Not Use the Same Student Counts to Rank Its Schools
               and Allocate Title I Funds

The Minneapolis LEA did not use the same student counts to allocate Title I funds to 62
public schools that it used to identify and rank eligible schools. For the 2001-2002
school year, the Minneapolis LEA allocated $10,157,4583 of Title I funds to 63 public
schools using projected enrollment counts for the fall of 2001. The Minneapolis LEA
multiplied each school’s projected enrollment counts for the fall of 2001 by the school’s
poverty percentage to arrive at the projected count of students eligible for free and
reduced priced meals. It then multiplied this projected count by the per-pupil dollar
amount ($480) to arrive at the amount of Title I funds it would allocate to each school for
the 2001-2002 school year. The Minneapolis LEA then added one percent for parent
involvement to each school’s allocation. This process is contrary to the law. When
allocating Title I funds, the Minneapolis LEA should have used the same student counts
that it used to calculate each school’s poverty percentage and rank order its schools.
Those counts were taken from the MINCRIS 00-01 Meal Participation (MINCRIS)
report.4

Pursuant to ESEA, Title I, Part A, Section 1113(a)(5), the LEA shall use the same
measure of poverty, which measure shall be the number of children ages 5 through 17 in
poverty counted in the most recent census data approved by the Secretary, the number of
children eligible for free and reduced priced lunches under the Richard B Russell
National School Lunch Act, . . . or the number of children eligible to receive medical
assistance under the Medicaid program, or a composite of such indicators, with respect to
3
  In addition to the $10,157,458 of Title I funds allocated to 63 public schools, the Minneapolis LEA allocated
$580,800 in Title I funds to 18 public alternative schools.
4
  The MINCRIS report, based on October 1, 2000, student counts, includes enrollment counts and free and reduced
priced meal student counts used to compute school poverty percentages and student counts that LEAs are to use to
allocate Title I funds to schools. CFL, in early April, provides the LEAs with the MINCRIS report. The report shows
the total K-12 student enrollment count and the count of students eligible for free and reduced priced meals by
individual public and public alternative school located within the LEA. CFL generates the MINCRIS report from the
Minnesota Automated Reporting Student System (MARSS) using student counts for grade levels K-12 and the
students' economic indicator.


                                                         2

Final Audit Report                                                    ED-OIG/A05-C0029

all school attendance areas in the LEA to identify eligible school attendance areas,
determine the ranking of each area, and determine allocations under subsection (c).

The Minneapolis LEA’s use of different student enrollment counts resulted in the
incorrect allocation of $683,084. The allocations made to 26 public schools were inflated
by $257,914. For example, as a result of the Minneapolis LEA using a projected
enrollment count, one school received $41,693 more in Title I funds than it would have
received if the Minneapolis LEA used the count of students eligible for free and reduced
meals from the MINCRIS report. In addition, the allocations made to 36 public schools
were reduced by $425,170. For example, as a result of the Minneapolis LEA using a
projected enrollment count, one school received $30,542 less in Title I funds than it
would have received if the Minneapolis LEA used the count of students eligible for free
and reduced meals from the MINCRIS report.

According to the Minneapolis LEA official who compiles the projected enrollment
counts, the Minneapolis LEA used projected enrollment counts because the counts
represented a more up-to-date count of the schools’ enrollments for the 2001-2002 school
year. The projected enrollment counts for the fall of 2001 were as of April 4, 2001,
instead of October 1, 2000. The projections were derived by grade progression using a
weighted moving average methodology. The estimated enrollment counts are done for
planning purposes to determine how many classrooms are needed by grade and building
using a class size of 19. The Minneapolis LEA official who compiled the projected
enrollment counts stated that the estimates are becoming more difficult and varied
because of the increasing number of Charter Schools and other options (Open enrollment,
Student Choices) available to students.

Recommendation

We recommend that the Office of Elementary and Secondary Education direct the
Minnesota Department of Education to

1.1 require the Minneapolis LEA to use the same student enrollment counts to allocate
    Title I funds to schools that it uses to rank schools.


Finding No. 2 One LEA Allocated Higher Title I Per-Pupil Amounts to Schools
              with Lower Concentrations of Poverty Than It Allocated to the
              School with the Highest Concentration of Poverty

For the 2001-2002 school year, the Park Rapids LEA allocated higher per-pupil amounts
to lower ranked schools than it allocated to the school with the highest concentration of
poverty. The poverty percentages for the Park Rapids LEA’s three Title I eligible
schools were 51.04 percent, 49.71 percent, and 47.74 percent. The Park Rapids LEA’s
Title I application showed that it (1) requested $303,961 of Title I funds and (2) had 793
students eligible for free and reduced priced meals (a per-pupil amount of $383.31). In
its Title I application, the Park Rapids LEA indicated that it allocated $303,461 of Title I



                                             3

Final Audit Report                                                   ED-OIG/A05-C0029

funds to the three schools. However, the final allocation was based on a count of 610 and
only totaled $233,819, a difference of $69,642.

When we asked about the difference, the Park Rapids Title I Coordinator provided us
with information that showed the Park Rapids LEA expended $299,855 in Title I funds.
This amount included salary and fringe benefit costs for a lead Title I teacher ($65,196)
and other personnel that the Park Rapids LEA funded with Title I funds for the 2001-
2002 school year. The lead Title I teacher’s salary and fringe benefit costs were allocated
to the three Title I eligible schools in proportion to each school’s percentage of students
eligible for free and reduced priced meals. Based on the information provided, the
amount of Title I funds Park Rapids actually allocated to the school with the highest
concentration of poverty was $351.43 per low-income student. The amount allocated to
the other two schools was $622.97 per low-income student and $397.12 per low-income
student, respectively.

Pursuant to 34 C.F.R. § 200.28(c), an LEA is not required to allocate the same per-pupil
amount to each participating school attendance area or school provided the LEA allocates
higher per-pupil amounts to areas or schools with higher concentrations of poverty than
to areas or schools with lower concentrations of poverty.

As a result of the Park Rapids LEA allocating higher per-pupil amounts to schools with
lower concentrations of poverty, the school with the highest concentration of poverty
received a lesser per-pupil amount. If the Park Rapids LEA had allocated Title I funds to
all its targeted schools equally, as intended according to its application, the school with
the highest concentration of poverty would have received an additional $7,148 in Title I
funds.

In preparing its Title I application, the Park Rapids LEA incorrectly showed the actual
allocation of Title I funds for the three schools. Although CFL reviews each LEA’s Title
I application, CFL did not detect Park Rapids’ improper allocation.

Recommendation

We recommend that the Office of Elementary and Secondary Education direct the
Minnesota Department of Education to

2.1 work with the Park Rapids LEA to ensure that it correctly completes its Title I
    application and instruct the Park Rapids LEA to review and verify its allocation
    calculations for accuracy and compliance with governing regulations before
    submitting the application to CFL.




                                             4

Final Audit Report                                                                     ED-OIG/A05-C0029


                                               BACKGROUND 


The Title I program is authorized under the ESEA, as amended by the Improving
America’s Schools Act of 1994, Public Law 103-382.5 Title I grants are intended to help
elementary and secondary schools establish and maintain programs that will improve the
educational opportunities of low-income and disadvantaged children. The funds are
intended to provide instruction and instructional support for these disadvantaged children
so they can master challenging curricula and meet state standards in core academic
subjects.

Title I funds are distributed from the U. S. Department of Education (ED) to states based
on data that are measured at the LEA and state levels. The state’s allocation is the sum of
the LEAs’ allocations as determined by ED. However, ED’s allocations are not the final
amounts the LEAs receive because the state must adjust the allocations to

      reserve funds for state administration (up to 1 percent) and for school improvement
       activities (no more than .5 percent but at least $200,000) and
      account for changes in district boundaries, consolidations, creation of special districts
       such as charter schools or regional vocational/technical schools that are eligible for
       Title I funds but not reflected in ED’s allocations.

In distributing funds to schools, LEAs are subject to several key restrictions. An LEA
must determine which school attendance areas (schools) are eligible to participate in Title
I. A school attendance area is generally eligible to participate if the percentage of
children from low-income families is at least as high as the percentage of children from
low-income families in the LEA as a whole or at least 35 percent poverty. An LEA also
may designate and serve a school in an ineligible attendance area if the percentage of
children from low-income families enrolled in that school is equal to or greater than the
percentage of such children in a participating school area. When determining eligibility,
an LEA must select a poverty measure from among those specified in the statutes. The
LEA must use the measure consistently across the LEA to rank all school attendance
areas according to their percentage of poverty.

LEAs allocate funds to eligible schools or attendance areas in rank order according to
their poverty percentages. An LEA must serve those schools or areas above 75 percent
poverty, including any middle or high schools, before it serves any schools or areas with
a poverty percentage below 75 percent. Once all schools and areas above 75 percent
poverty are served, the LEA may serve lower-poverty areas and schools either by
continuing with the LEA-wide ranking or by ranking its schools below 75 percent
poverty according to grade-span groupings. An LEA with an enrollment of less than
1,000 students or with only one school per grade span is not required to rank its school
attendance areas.

LEAs are not required to allocate the same per-pupil amount to each school. If they
choose not to allocate the same per-pupil amount to each school, they must allocate
5
    The ESEA was reauthorized by the No Child Left Behind Act of 2001 on January 8, 2002.


                                                          5

Final Audit Report 	                                                               ED-OIG/A05-C0029

higher per-pupil amounts to poorer schools than they allocate to schools with lower
concentrations of poverty. LEAs also may apply for and receive waivers of any of these
allocation requirements.

For the 2001-2002 school year, the State of Minnesota received $95,313,310 (Basic and
Concentration grants) in Title I funds. Of this amount, CFL allocated $90,334,593 to 343
LEAs. CFL also allocated $2,410,166 to 52 charter schools and 2 cooperative LEAs.
The 10 LEAs that we audited received $29,196,558 in Title I funds and allocated those
funds to 166 public schools.

                        OBJECTIVE, SCOPE, AND METHODOLGY

The objective of our audit was to determine whether selected LEAs in the State of
Minnesota complied with Title I of the ESEA and regulations governing the allocation of
Title I funds to schools. Our audit covered the period July 1, 2001, through June 30,
2002.

To achieve our objectives, we

1. 	 reviewed CFL’s management control structure, policies, procedures, and practices
     applicable to its allocation of Title I funds to LEAs and monitoring of LEAs’
     allocation of Title I funds to schools;6
2. 	 obtained the universe of LEAs from CFL officials;
3. 	 stratified the universe of 343 LEAs7 based on the amount of Title I funds received
     into 7 strata, judgmentally selected the 2 largest LEAs (Minneapolis and St. Paul) that
     made up the first strata, and randomly selected 8 additional LEAs from the 5 next
     largest strata;
4. 	 obtained information regarding the 10 LEAs’ allocation processes and allocations for
     the 2001-2002 school year;
5. 	 audited each LEA’s allocation process and allocation by
     (a) identifying the key people involved in the allocation process,
     (b) obtaining and reviewing copies of the LEA's two most recent Single Audit reports
         and Management Letters,
     (c) obtaining a list of the LEA’s Title I allocations to schools,
     (d) gaining an understanding of the LEA’s allocation process and related controls,
     (e) determining whether the LEA allocated Title I funds to schools with the highest
         percentage of poor children (rank order) and whether the LEA allocated funds
         only to eligible schools,
     (f) verifying that lower poverty schools were not receiving higher per pupil
         allocations than higher poverty schools and that the LEA used a proper poverty
         measure,

6
  Our review of CFL’s management controls also included a review of the Minnesota single audit report
and financial statements for the year ended June 30, 2001, interviews with staff of the Minnesota Office of
the Legislative Auditor, and a review of their audit working papers related to CFL and Title I allocations to
LEAs.
7
  We excluded the charter schools and cooperative LEAs from the universe.


                                                      6

Final Audit Report                                                  ED-OIG/A05-C0029

   (g) verifying that the student count data used in the allocation was accurate and
       inclusive in accordance with the ESEA and the applicable regulations, and
   (h) assessing the reliability of computer-processed data applicable to the LEA’s
       allocations of Title I funds to schools.

In addition, we relied on computer-processed data that CFL used to allocate Title I funds
to LEAs. The data we used were the LEA grant allocation amounts and the student
enrollment and counts of students eligible for free and reduced priced meals contained in
CFL’s computerized student database (MARSS). To determine whether this data was
reliable, we first assessed the adequacy of the related computer system controls. We then
compared the student enrollment count data and student counts for free and reduced
priced meals contained in MARSS to the LEA count data for 31 schools from 5 LEAs.
Based on our assessment and tests, we concluded that the computer-processed data we
were provided was sufficiently reliable for the purposes of our audit.

We conducted our audit at (1) CFL’s offices in Roseville, Minnesota; (2) St. Paul Public
Schools’ offices in St. Paul, Minnesota; and (3) Minneapolis Public Schools’ offices in
Minneapolis, Minnesota during the period November 19, 2002, through April 24, 2003.
We did not visit the other 8 LEAs’ offices. We held an exit conference with officials
from CFL, the St. Paul LEA, and the Minneapolis LEA on April 24, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above.

                 STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we assessed CFL’s management control structure, policies,
procedures, and practices applicable to its allocation of Title I funds to LEAs. To make
our assessment, we classified CFL’s controls into the following categories

¾ Allocation of Title I funds to LEAs including controls over the completeness and
  accuracy of student enrollment and free and reduced priced meal counts
¾ Monitoring LEAs’ allocations of Title I funds to schools

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in CFL’s Title I
management controls. Our study and evaluation did not disclose any material
weaknesses related to CFL’s administration of the Title I program that indicated
Minnesota LEAs and CFL were susceptible to noncompliance with applicable law and
regulations.

We did not assess the adequacy of the management control structure of the 10 LEAs that
we audited because such assessments were not necessary to achieve our audit’s objective.
Instead, we obtained an understanding of the processes the 10 LEAs used to allocate Title
I funds to schools and determined whether the processes were in compliance with the
applicable law and regulations. Our review disclosed two instances of non-compliance



                                            7

Final Audit Report                                                   ED-OIG/AOS-C0029


with federal law and regulations that were caused by management control weaknesses at
two LEAs. One LEA lacked controls to ensure that it used the same student counts to
allocate Title I funds to schools that it used to rank schools. A second LEA lacked
controls to provide reasonable assurance that it allocated per-pupil amounts to schools in
rank order of their concentration of poverty. These weaknesses and the~r effects are
discussed in the AUDIT RESULTS section of this report.
                                                                                             r..
                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determination of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED official,
who will consider them before taking final action on the audit.

                       Ronald J. Tomalis, 

                       Chief of Staff to the Under Secretary 

                       U. S. Department of Education
                       FOB-6, Room 7E300
                       400 Maryland Avenue, SW
                       Washington, D.C. 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your additional
comments or information within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.




                                      Regional Inspector General
                                      for Audit Services


Attachment




                                             8

                                                                                                    Attachment




September 18, 2003


Richard J. Oowd
Regional Inspector General
 for Audit Services
III North Canal, Suite 940
Ch;ca&~, m;n."lii 60606


Dear Mr. Dowd:

The audit report for Minnesota's local educational agencies' (l EA) allocations of the Elementary and
Secondary Education Act, as amended, Title I, Part A, funds to schools for th e period of July 1,200 1
through June 30, 2002 was received and reviewed. The department is in agreement with your findings
and recommendations. Below are the actions that the Department has taken to ensure that the violations
will not re-occur.

Flndini!: No. 1 One tEA did not use the sa me stude nt co un u to ranlo; 115 schools a nd a llocate Title I
funds
The Minneapolis LEA did nOI use the same student count to allocate Title I funds that it used to identify
and rank eligible schools. The agenc y has provided the regulations and gUIdance that pertam to the
identification. ranking and distribution of Title I funds to indiVIdual buildings. In the future. Minneapolis
will use the same procedures to identify, rank and distribute funds.

Finding No. 2 One LEA allocated higher Title I per-pupil amounu 10 5chools with lower
concentrations of poverty th an it allocated to th e school with th e higher concentration of PO\'erty
The Park Rapids LEA incorrectly allocated funds to schools in the district. In order to ensure that this
violati on does not occur in the future, the Department has added an additional step to the approval
process. The supervisor for each area director will review key sections ofthe Title I application.
Included in this review is the distribution of funds to Title I schools in rank order.

If you have any questions, please contact Ms. Jessie Montano, Director ofNCLB Programs in the
Division of Federal Programs. She can be reached by email at:jessje.monlilDo@stllte.mn.us or by phone
at 651·582-8784.




~~~
Director of Administrative Services




          1500 Highway 36 West, Roseville, MN 55113·4266      6$\·582-8200     ITY: 651 ·582·8201
                                        education.state.mn.us
